TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                     Assessment of the Internal Revenue
                  Service’s Interpretation of Section 1302 of
                   the Recovery Act: Qualifying Advanced
                             Energy Project Credit



                                          March 21, 2013

                              Reference Number: 2013-40-029




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                          HIGHLIGHTS



ASSESSMENT OF THE INTERNAL                           affect the IRS’s compliance with the Code
REVENUE SERVICE’S INTERPRETATION                     requirements when awarding the Advanced
OF SECTION 1302 OF THE RECOVERY                      Energy Credit.
ACT: QUALIFYING ADVANCED ENERGY                      In addition, the IRS cites rule-making authority
PROJECT CREDIT                                       and the general language of the law as its basis
                                                     to use additional selection criteria. Based on the
                                                     lack of clarity in the law, the IRS used its
Highlights                                           authority under Title 5 of the United States Code
                                                     to interpret the law to mean the IRS must
Final Report issued on March 21, 2013                consider all of the criteria contained in the law
                                                     but could include additional criteria as it deemed
Highlights of Reference Number: 2013-40-029          appropriate. The IRS, in conjunction with the
to the Internal Revenue Service Commissioner         U.S. Department of Energy, determined that the
for the Large Business and International             application of Program Policy Factors was
Division.                                            appropriate and set forth the rules in IRS Notice
                                                     2009-72.
IMPACT ON TAXPAYERS
                                                     The U.S. Department of Energy noted that the
Section 1302 of the American Recovery and            Program Policy Factors were used to ensure
Reinvestment Act of 2009 (the Recovery Act)          that the $2.3 billion in allocated Credits was
established the Qualifying Advanced Energy           disbursed across a range of project types, sizes,
Project Credit (Advanced Energy Credit). The         and locations among qualified applicants. The
Advanced Energy Credit was intended to               use of the Program Policy Factors affected
encourage development of a manufacturing             which qualified projects the Department of
base to support renewable energy industries.         Energy recommended to the IRS.
The Recovery Act provided for $2.3 billion in
Advanced Energy Credits to be allocated to           All Advanced Energy Credit awards made by the
manufacturers for qualified projects.                IRS were consistent with U.S. Department of
                                                     Energy rankings and recommendations. The
WHY TIGTA DID THE AUDIT                              IRS’s involvement in the ranking and review
                                                     process was limited to verifying that
This audit was initiated at the request of the
                                                     manufacturers timely filed a complete
Chairman, U.S. House of Representatives,
                                                     application for certification with the IRS for each
Committee on Science, Space, and Technology,
                                                     recommended energy project.
Subcommittee on Investigations and Oversight.
The Subcommittee expressed concerns with the         WHAT TIGTA RECOMMENDED
IRS’s interpretation of Section 1302 of the
Recovery Act and its program guidance, which         TIGTA made no recommendations.
set forth the criteria and process for considering
and selecting companies to receive the
Advanced Energy Credit.
WHAT TIGTA FOUND
Inconsistencies exist between issued guidance
and the law. The inconsistencies between IRS
Notice 2009-72 and Internal Revenue Code
Section 48C criteria resulted from the IRS’s
efforts to: 1) simplify program guidance so it
would be more easily understood by
manufacturers and 2) ensure that the Credits
were disbursed equitably among qualified
applicants. However, the inconsistencies did not
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 21, 2013


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Assessment of the Internal Revenue Service’s
                                 Interpretation of Section 1302 of the Recovery Act: Qualifying
                                 Advanced Energy Project Credit (Audit # 201240139)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 interpretation of Section 1302 of the American Recovery and Reinvestment Act of 2009
 (Recovery Act)1 and its program guidance that set forth the criteria and process for considering
 and selecting manufacturers to receive the Qualifying Advanced Energy Project Credit. This
 review was requested by the U.S. House of Representatives, Committee on Science, Space, and
 Technology, Subcommittee on Investigations and Oversight. This report is intended to answer
 specific questions posed by the Subcommittee. This review is included in the Treasury Inspector
 General for Tax Administration Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Implementation of the Affordable Care Act and Other Tax Law
 Changes.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 Although we made no recommendations in this report, IRS officials were provided an
 opportunity to review the draft report. IRS management did not provide any comments in
 response to this report.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                  Assessment of the Internal Revenue Service’s
               Interpretation of Section 1302 of the Recovery Act:
                   Qualifying Advanced Energy Project Credit



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me if you have questions or Augusta R. Cook, Acting
Assistant Inspector General for Audit (Returns Processing and Account Services).




                                                                                       2
                           Assessment of the Internal Revenue Service’s
                        Interpretation of Section 1302 of the Recovery Act:
                            Qualifying Advanced Energy Project Credit




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Inconsistencies Exist Between Issued Guidance and the Law...................... Page 4
          The Internal Revenue Service Cited Rule-Making Authority
          and the General Language of the Law as the Basis for Its
          Decision to Use Additional Selection Criteria .............................................. Page 5
          The Use of Program Policy Factors Affected Project Rankings................... Page 6
          Advanced Energy Credit Awards Were Consistent With
          Department of Energy Rankings and Recommendations ............................. Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Internal Revenue Code Section 48C, Qualifying
                       Advanced Energy Project Credit .......................................... Page 15
          Appendix V – Application Requirements for the Advanced
                       Energy Credit ........................................................................ Page 20
          Appendix VI – Department of Energy Technology Groups ......................... Page 23
            Assessment of the Internal Revenue Service’s
         Interpretation of Section 1302 of the Recovery Act:
             Qualifying Advanced Energy Project Credit




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                          Assessment of the Internal Revenue Service’s
                       Interpretation of Section 1302 of the Recovery Act:
                           Qualifying Advanced Energy Project Credit




                                           Background

This audit was initiated at the request of the Chairman, U.S. House of Representatives,
Committee on Science, Space, and Technology, Subcommittee on Investigations and Oversight.
The Subcommittee asked questions about the Internal Revenue Service’s (IRS) interpretation of
Section (§) 1302 of the American Recovery and Reinvestment Act of 2009 (the Recovery Act)1
and its program guidance, which set forth the
criteria and process for considering and selecting
                                                             The Recovery Act provided
manufacturers to receive the Qualifying                $2.3 billion in Advanced Energy Credits
Advanced Energy Project Credit (Advanced                   for the purpose of encouraging
Energy Credit). The Subcommittee asked the              development of a manufacturing base
Treasury Inspector General for Tax                    to support renewable energy industries.
Administration (TIGTA) to address the
following:
       1) Inconsistencies between the IRS criteria and the law, especially those related to the
          lowest levelized cost criterion.
       2) Statutory authority for the addition of Program Policy Factors.
       3) Observations about how any inconsistencies may have affected project rankings.
       4) Whether the IRS made awards consistent with U.S. Department of Energy rankings and
          recommendations.
Section 1302 of the Recovery Act established the Advanced Energy Credit by adding
Internal Revenue Code (I.R.C.) § 48C.2 The Advanced Energy Credit was intended to encourage
development of a manufacturing base to support renewable energy industries. Manufacturers
can receive Advanced Energy Credits up to 30 percent of the qualified expenditures for a project
that establishes, expands, or re-equips a manufacturing facility for the production of certain types
of property. These properties include those designed to produce energy from renewable sources
such as the sun and wind. The Recovery Act provided for $2.3 billion in Advanced Energy
Credits to be allocated to manufacturers for qualified projects.




1
    Pub. L. 111-5, 123 Stat. 115 (2009).
2
    Appendix IV provides I.R.C. § 48C.
                                                                                              Page 1
                         Assessment of the Internal Revenue Service’s
                      Interpretation of Section 1302 of the Recovery Act:
                          Qualifying Advanced Energy Project Credit



Key steps in the Advanced Energy Credit application and awarding process
The IRS, in conjunction with the U.S. Department of Energy (Department of Energy), developed
an application process for the Advanced Energy Credit. IRS Notice 2009-72, Qualifying
Advanced Energy Project Credit, issued in September 2009, provided guidance on the types of
projects that qualified to receive the Advanced Energy Credit and how to apply for the Credit.3
Figure 1 provides the timeline for the application and awarding of the Credit.4
                  Figure 1: Timeline for the Application and Awarding of the
                                   Advanced Energy Credit

           DATE                                                DESCRIPTION

February 17, 2009            Advanced Energy Credit established as part of the Recovery Act.

                             The IRS posts Notice 2009-72 on IRS.gov. The Notice provides guidance to
August 13, 2009
                             manufacturers on eligibility requirements and the application process.
                             The IRS and the Department of Energy begin accepting applications from
August 14, 2009
                             manufacturers for the Advanced Energy Credit.
September 14, 2009           Notice 2009-72 is published in Internal Revenue Bulletin Number 2009-37.
                             The deadline for manufacturers to submit a preliminary project application to the
                             Department of Energy for review of project eligibility and technical merit. The
                             preliminary project application served as a manufacturer’s notice of intent to
September 16, 2009
                             apply for the Credit and allowed the Department of Energy to determine the
                             technological expertise that would be needed to review final applications once
                             received.
                             The deadline for manufacturers to submit the final Application for Department of
                             Energy Recommendation for review of project eligibility and technical merit.
October 16, 2009
                             This application served as a manufacturer’s formal application for the Advanced
                             Energy Credit.
                             The deadline for manufacturers to submit an Application for § 48C Certification
                             to the IRS. The application for certification provided information related to the
                             manufacturer requesting the Advanced Energy Credit along with a point of
December 16, 2009            contact for the IRS.
                             The Department of Energy provides recommendations to the IRS, including the
                             credit amounts for manufacturers to be awarded the Credit. The Department of
                             Energy recommends 184 projects for the Advanced Energy Credit.




3
    IRS Notice 2009-72, 2009-37 Internal Revenue Bulletin 325.
4
    Appendix V details the Advanced Energy Credit application requirements.
                                                                                                        Page 2
                       Assessment of the Internal Revenue Service’s
                    Interpretation of Section 1302 of the Recovery Act:
                        Qualifying Advanced Energy Project Credit



        DATE                                                 DESCRIPTION

                          The IRS notifies the Department of Energy that some manufacturers of the
                          184 recommended projects may not be eligible to receive the Advanced Energy
December 16, 2009
                          Credit due to not meeting the Notice 2009-72 requirements.5 The IRS requests
                          replacement projects from the Department of Energy.
                          The Department of Energy provides replacement projects to the IRS for
                          awarding of the remaining Credit. The IRS verifies that the manufacturers of the
January 7, 2010
                          replacement projects met the time period requirement to file an Application for
                          § 48C Certification with the IRS.
                          The IRS notifies selected manufacturers that they have been awarded the Credit
January 7, 2010
                          and the amount of the Credit received.
                           The President announces the recipients of the $2.3 billion in Advanced Energy
January 8, 2010
                           Credits.
Source: IRS Offices of Associate Chief Counsel (Passthroughs and Special Industries) and Large Business and
International Division.

This review was performed in the IRS’s Large Business and International Division Headquarters
and the Office of the Chief Counsel in Washington, D.C., and the Large Business and
International Division, Natural Resources and Construction Industry function in Houston, Texas.
We also obtained information from the Department of Energy Headquarters in Washington, D.C.
This review was performed during the period July to December 2012.
The scope of this review was to respond to the questions posed by the Chairman of the
Subcommittee on Investigations and Oversight pertaining to the IRS’s interpretation of § 1302 of
the Recovery Act. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. There was a scope limitation with respect to the data
on project rankings. The Department of Energy was unable to provide us with the individual
technical expert review scores or the numeric rankings of projects after the Program Policy
Factors had been applied. Without this information, we were unable to determine which projects
may have been recommended to the IRS had the Department of Energy compared all qualified
projects based only on the projects’ technical expert scores. Notwithstanding this limitation, we
believe that the evidence we were able to obtain provides a reasonable basis for our findings and
conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.


5
 Per Notice 2009-72, manufacturers must submit an Application for § 48C Certification to the IRS by
December 16, 2009, to be eligible for the Advanced Energy Credit. See Appendix V.
                                                                                                      Page 3
                        Assessment of the Internal Revenue Service’s
                     Interpretation of Section 1302 of the Recovery Act:
                         Qualifying Advanced Energy Project Credit




                                      Results of Review

Inconsistencies Exist Between Issued Guidance and the Law
The inconsistencies between IRS Notice 2009-72 and I.R.C. § 48C criteria resulted from the
IRS’s efforts to: 1) simplify program guidance so it would be more easily understood by
manufacturers and 2) ensure that the Credits were disbursed equitably among qualified
applicants. However, the inconsistencies did not affect the IRS’s compliance with the Code
requirements when awarding the Advanced Energy Credit.
The inconsistencies are detailed below.
       The I.R.C. § 48C criterion for levelized cost6 is worded differently from IRS
        Notice 2009-72. I.R.C. § 48C(d)(3)(B)(iv) states that in determining which qualifying
        advanced energy projects to certify, the IRS shall take into consideration which projects
        have
                  . . . the lowest levelized cost of generated or stored energy, or of
                 measured reduction in energy consumption or greenhouse gas emission
                 (based on costs of the full supply chain) . . .
        However, the wording in IRS Notice 2009-72 states the IRS shall take into consideration
        which projects have
                 . . . the greatest potential for technological innovation and commercial
                 deployment, as indicated by (i) the production of new or significantly
                 improved technologies, (ii) improvements in levelized costs and
                 performance . . .
        IRS management stated that Notice 2009-72 contains further instructions requiring
        applicants to include a computation of levelized cost of the project with their application.
        The Notice also indicates that levelized cost will be evaluated as one of the factors when
        selecting projects to receive the Advanced Energy Credit. In addition, documentation
        provided by the Department of Energy indicates that the Department evaluated the lowest
        levelized cost as described in I.R.C. § 48C when reviewing and recommending projects
        to the IRS for awarding of the Advanced Energy Credit.



6
 The levelized cost of energy is the constant price per unit of energy that if assigned to every unit of energy
produced (or saved) by the system over a period of time would result in the system’s breakeven point where costs
and benefits are equal.
                                                                                                           Page 4
                      Assessment of the Internal Revenue Service’s
                   Interpretation of Section 1302 of the Recovery Act:
                       Qualifying Advanced Energy Project Credit



      IRS Notice 2009-72 includes additional selection criteria to be considered when selecting
       manufacturers that are not included in I.R.C. § 48C. Specifically, Notice 2009-72
       provides Program Policy Factors that were to be considered when selecting
       manufacturers to receive the Advanced Energy Credit. The Department of Energy
       explained that these four factors were selected for use in recommending recipients of the
       Advanced Energy Credit to ensure that the $2.3 billion in allocated Credits was disbursed
       across a range of project types, sizes, and locations among qualified applicants. Figure 2
       provides a description of each of the four Program Policy Factors applied to select
       manufacturers to receive the Advanced Energy Credit.
         Figure 2: Program Policy Factors Applied to Select Manufacturers

  Program Policy Factor                                      Description

                             Applied in an effort to ensure that the Advanced Energy Credit was
  Geographic Diversity       awarded to manufacturers who were geographically dispersed
                             throughout the United States.
                             Applied in an effort to ensure that the Advanced Energy Credit was
  Technology Diversity
                             awarded to projects that represented a diverse technology base.
                             Applied in an effort to ensure that Advanced Energy Credits awarded
  Project Size Diversity
                             were dispersed among large, medium, and small projects.
                             Applied in an effort to ensure that the Advanced Energy Credit was
  Regional Economic          awarded to those projects that would have a positive impact on the
  Development                economic development within the region where the manufacturing would
                             occur.
Source: Department of Energy, Office of Energy Efficiency and Renewable Energy.

The Internal Revenue Service Cited Rule-Making Authority and the
General Language of the Law as the Basis for Its Decision to Use
Additional Selection Criteria
Title 5 of the United States Code (5 U.S.C.) gives Federal agencies the general authority to
establish rules to “implement, interpret, or prescribe law or policy.” According to IRS Counsel,
Supreme Court rulings have further defined when agencies can make rules. Specifically,
agencies can establish interpretive rules when language in the law is ambiguous.
Both the IRS and the Department of Energy agreed that the language in I.R.C. § 48C is not clear
as to whether the IRS can or cannot use additional criteria to determine which qualifying
advanced energy projects should receive the Advanced Energy Credit. I.R.C. § 48C states the
IRS “shall consider only those projects where there is a reasonable expectation of commercial
viability.” The law further describes other criteria the IRS “shall consider” when awarding the


                                                                                                  Page 5
                          Assessment of the Internal Revenue Service’s
                       Interpretation of Section 1302 of the Recovery Act:
                           Qualifying Advanced Energy Project Credit



Credit. However, the law is unclear as to whether the IRS is to consider only those additional
factors or whether it may consider factors in addition to those listed.
Based on the lack of clarity in the law, the IRS used its authority under 5 U.S.C. to interpret the
law to mean that the IRS must consider all of the criteria contained in the law but could include
additional criteria as it deemed appropriate. The IRS, in conjunction with the Department of
Energy, determined that the application of Program Policy Factors was appropriate and set forth
the rules in IRS Notice 2009-72.

The Use of Program Policy Factors Affected Project Rankings
I.R.C. § 48C requires the IRS to award the Advanced Energy Credit to qualified projects in rank
order until the $2.3 billion in allocated funds was exhausted. The Department of Energy
reviewed the Advanced Energy Credit applications and made recommendations to the IRS as to
which projects should be awarded the Credit. However, the use of the Program Policy Factors
affected which qualified projects the Department of Energy recommended to the IRS.
The Department of Energy conducted two levels of review when determining which projects to
recommend to the IRS. Figure 3 describes the general process the Department of Energy used to
formulate its recommendations to the IRS for the Advanced Energy Credit.
             Figure 3: Process Used by the Department of Energy to Formulate
                     Recommendations for the Advanced Energy Credit

     Step               Action Taken                                      Description
       1        Applications were grouped        Projects that involve similar energy technologies (e.g., wind,
                by like technologies.            solar, or geothermal.) were grouped together for review. The
                                                 Department of Energy grouped the 594 project applications
                                                 received into 19 technical groups.7
       2        Applications were given an       Department of Energy technical experts reviewed the
                eligibility and technical        applications within each technology group and assigned a
                merit score.                     score to each project. The technical expert’s score was based
                                                 on the criteria contained in I.R.C. § 48C. The Department of
                                                 Energy determined that 418 of the 594 projects qualified to
                                                 receive the Advanced Energy Credit. Qualified projects were
                                                 ordered within each technical group based on the technical
                                                 expert’s score.




7
    See Appendix VI for a listing of the technology groups.
                                                                                                        Page 6
                        Assessment of the Internal Revenue Service’s
                     Interpretation of Section 1302 of the Recovery Act:
                         Qualifying Advanced Energy Project Credit



    Step             Action Taken                                         Description
     3        Applications were                A cross-functional team within the Department of Energy
              evaluated using the              conducted analysis of all qualified projects using the Program
              Program Policy Factors.          Policy Factors found in IRS Notice 2009-72. A separate
                                               analysis was performed for each Program Policy Factor.
                                               These analyses compared projects across technology groups
                                               for each of the four Program Policy Factors.
     4        Projects were ranked             The Department of Energy compared the results of the
              based on the results of the      Program Policy Factor analyses. Projects that consistently
              Program Policy Factor            scored high in program policy analysis and technical merit
              analyses.                        were given the highest rank. The Department of Energy
                                               continued to rank projects based on the consistency of its
                                               scores within each of the Program Policy Factor and technical
                                               merit analyses until the $2.3 billion in available Credits was
                                               allocated. The Department of Energy compiled the remaining
                                               projects for future consideration should additional funds
                                                                   8
                                               become available. However, the Department of Energy did
                                               not formally rank these projects.
     5        Recommendations were             The Department of Energy recommended qualified projects to
              made to the IRS.                 the IRS in rank order as determined by the Department of
                                               Energy’s evaluation of the results of the Program Policy Factor
                                               analyses.
Source: The Department of Energy.

Use of the Program Policy Factors influenced which projects were selected to
receive the Advanced Energy Credit
Information provided by the Department of Energy shows that use of Program Policy Factors
influenced the Department’s recommendations to the IRS. However, we are unable to determine
how the project selections would have changed had the Program Policy Factors not been used.
The Department of Energy was not able to provide us with the individual technical expert score
and numeric rankings of each project after the Program Policy Factors had been applied.9
Without this information, we are unable to determine which projects may have been
recommended to the IRS had the Department of Energy compared all qualified projects based
only on the projects’ technical expert scores.


8
  If a company that was awarded the Advanced Energy Credit does not meet all of the requirements to receive the
Credit, the funds are to be re-awarded to another qualified applicant.
9
  When we asked for the information during our audit, Department of Energy management responded that the
individuals responsible for compiling the information were no longer with the Department of Energy and, as a result,
they were unable to locate the data. After we completed our audit and issued the draft audit report, Department of
Energy management stated that they did not provide this information because it would be too confusing to
understand.


                                                                                                           Page 7
                      Assessment of the Internal Revenue Service’s
                   Interpretation of Section 1302 of the Recovery Act:
                       Qualifying Advanced Energy Project Credit



Figure 4 provides an example of how the use of the Program Policy Factors affected the
Department of Energy’s recommendation of projects within one of the 19 technology groups it
used. For example, Company 2 was not recommended for the Advanced Energy Credit although
the company’s project had a technical expert score of 875, significantly higher than the technical
expert score for Company 15, which was recommended to receive the Credit. The IRS awarded
the Advanced Energy Credit consistent with the Department of Energy’s recommendations.
     Figure 4: Example of the Effect of the Use of Program Policy Factors on the
                Department of Energy’s Recommendations to the IRS
                                                  Technical
                                                                Recommended
                               Company             Expert
                                                                   to IRS?
                                                   Score10

                          Company 1                  905               Yes
                          Company 2                  875               No
                          Company 3                  850               Yes
                          Company 4                  805               Yes
                          Company 5                  805               Yes
                          Company 6                  750               Yes
                          Company 7                  750               Yes
                          Company 8                  680               Yes
                          Company 9                  650               Yes
                          Company 10                 585               Yes
                          Company 11                 500               Yes
                          Company 12                 500               No
                          Company 13                 450               No
                          Company 14                 450               No
                          Company 15                 400               Yes
                        Source: TIGTA analysis of Department of Energy recommendations
                        for the Advanced Energy Credit.

We cannot determine whether the Department of Energy would have recommended all 15 of the
companies in Figure 4 to the IRS if it had ranked projects only on their technical expert score.
Without the exact technical expert score for each qualified project, we cannot determine how

10
  The technical expert score is the approximate score each company received. The approximate score was
determined from information provided to TIGTA by the Department of Energy. The Department of Energy did not
provide TIGTA with the actual technical expert score for each qualified project.
                                                                                                    Page 8
                       Assessment of the Internal Revenue Service’s
                    Interpretation of Section 1302 of the Recovery Act:
                        Qualifying Advanced Energy Project Credit



these 15 projects would have ranked among all 418 qualified projects. In addition, the IRS could
only award the Advanced Energy Credit to companies until the $2.3 billion in available funds
was exhausted.

Advanced Energy Credit Awards Were Consistent With Department of
Energy Rankings and Recommendations
All Advanced Energy Credit awards made by the IRS were consistent with Department of
Energy rankings and recommendations. The Department of Energy received 594 applications
for the Advanced Energy Credit. The Department of Energy, based upon a review of eligibility
and merit, determined that 418 of the 594 applicants qualified for the Advanced Energy Credit.
On December 16, 2009, the Department of Energy recommended to the IRS 184 projects for the
Advanced Energy Credit associated with 135 manufacturers.11
The IRS’s involvement in the ranking and review process was limited to verifying that
manufacturers timely filed a complete Application for § 48C Certification with the IRS for each
recommended energy project. Of the 135 manufacturers the Department of Energy
recommended, the IRS identified four manufacturers that did not timely file a complete
Application for § 48C Certification. These projects were denied the Advanced Energy Credit.
The IRS notified the Department of Energy that four of the recommended manufacturers did not
satisfy the requirement of timely filing an Application for § 48C Certification and requested
recommendations for replacement projects. The Department of Energy provided replacement
projects that the IRS used to award the remaining Advanced Energy Credits.




11
  The number of manufacturers and projects receiving the Advanced Energy Credit is based upon information
provided to us by the IRS. TIGTA did not verify the accuracy of the information provided.
                                                                                                       Page 9
                          Assessment of the Internal Revenue Service’s
                       Interpretation of Section 1302 of the Recovery Act:
                           Qualifying Advanced Energy Project Credit



                                                                                          Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s interpretation of Section (§) 1302 of
the American Recovery and Reinvestment Act of 2009 (Recovery Act)1 and its program
guidance that set forth the criteria and process for considering and selecting manufacturers to
receive the Qualifying Advanced Energy Project Credit (Advanced Energy Credit). This review
was requested by the U.S. House of Representatives, Committee on Science, Space, and
Technology, Subcommittee on Investigations and Oversight. This audit was limited to obtaining
the answers to the specific questions posed by the Subcommittee on Investigations and
Oversight.
Our analysis was limited to the IRS’s role in the development of the Advanced Energy Project
program guidance and awarding of the Advanced Energy Credit. We did not evaluate
Department of Energy actions other than to determine the role the Department of Energy played
in formulating program guidance and recommending qualified energy projects for receipt of the
Credit. To accomplish our objective, we:
I.         Determined why there are inconsistencies between the IRS criteria and I.R.C. § 48C
           statutory criteria, particularly those associated with the lowest levelized cost criterion.
           A. Reviewed the Recovery Act, I.R.C. § 48C, and IRS Notice 2009-72, Qualifying
              Advanced Energy Project Credit,2 to determine the differences between I.R.C. § 48C
              and Notice 2009-72. We interviewed IRS personnel, including those in the IRS
              Office of Chief Counsel, and obtained documentation related to the process used to
              produce IRS Notice 2009-72.
           B. Interviewed Department of Energy personnel, including the Department’s Chief
              Counsel, as to why the lowest levelized cost evaluation factor differed from
              I.R.C. § 48C. We obtained any supplemental documentation to the extent allowable
              related to the process used to produce IRS Notice 2009-72.
II.        Determined the statutory authority for the addition of Program Policy Factors.
           A. Interviewed IRS personnel, including those in the IRS Office of Chief Counsel, to
              determine the statutory authority for the addition of the Program Policy Factors and
              reviewed documentation obtained from the IRS Office of Chief Counsel in Step I.A.



1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
    I.R.S. Notice 2009-72, 2009-37 Internal Revenue Bulletin 325.
                                                                                                 Page 10
                     Assessment of the Internal Revenue Service’s
                  Interpretation of Section 1302 of the Recovery Act:
                      Qualifying Advanced Energy Project Credit



           to determine the support for the IRS’s opinion that the inclusion of the Program
           Policy factors was allowable under I.R.C. § 48C.
       B. Interviewed Department of Energy personnel responsible for the content in IRS
          Notice 2009-72 to determine the statutory authority for the addition of the Program
          Policy Factors. We also reviewed documentation obtained from the Department of
          Energy in Step I.B. to determine the reason the Program Policy Factors were used and
          the support for the Department’s opinion that the inclusion of the Program Policy
          Factors was allowable under I.R.C. § 48C.
III.   Made observations about how inconsistencies between IRS Notice 2009-72 and
       I.R.C. § 48C may have affected project rankings.
       A. Determined the Department of Energy’s purpose for using the Program Policy
          Factors in ranking projects and determined if the use of the Program Policy Factors
          would have had a material impact on the Department of Energy’s recommendations
          for the Advanced Energy Credit.
       B. Determined how the Department of Energy applied the Program Policy Factors when
          evaluating and ranking projects. We also obtained a list of projects from the
          Department of Energy as they were ranked before the Program Policy Factors were
          applied and a list of projects as they were ranked after the Factors were applied. We
          compared the lists to determine how the projects that were recommended to the IRS
          would have changed if the Program Policy Factors had not been used.
IV.    Determined if the IRS made awards consistent with the Department of Energy’s rankings.
       A. Identified the process used by the IRS to determine which projects recommended by
          the Department of Energy should be awarded the Advanced Energy Credit and
          obtained documentation on the process used.
       B. Determined if the IRS awarded the Advanced Energy Credit to any project that was
          not recommended by the Department of Energy and, if so, why. We obtained
          documentation from the IRS for any project the Department of Energy recommended
          and the IRS rejected to determine the reason for the rejection. We also determined
          how the IRS, in working with the Department of Energy, replaced rejected projects
          when awarding the Advanced Energy Credit.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the controls in place to ensure that IRS
program guidance accurately reflects the legislation on which the guidance is developed. We
                                                                                          Page 11
                    Assessment of the Internal Revenue Service’s
                 Interpretation of Section 1302 of the Recovery Act:
                     Qualifying Advanced Energy Project Credit



evaluated the controls by reviewing the process the IRS used to develop Notice 2009-72 and
award the Advanced Energy Credit.




                                                                                       Page 12
                   Assessment of the Internal Revenue Service’s
                Interpretation of Section 1302 of the Recovery Act:
                    Qualifying Advanced Energy Project Credit



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Deann L. Baiza, Director
Russell P. Martin, Director
John L. Hawkins, Lead Auditor
Stephen A. Elix, Auditor
Brett C. Thornock, Audit Evaluator




                                                                                     Page 13
                   Assessment of the Internal Revenue Service’s
                Interpretation of Section 1302 of the Recovery Act:
                    Qualifying Advanced Energy Project Credit



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (Domestic), Large Business and International Division SE:LB
Director, Natural Resources and Construction Industry, Large Business and International
Division SE:LB:NRC
Director, Shared Support, Large Business and International Division SE:LB:SS
Chief of Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Program Manager, Division Planning, Oversight Reporting and Liaison, Shared
Support, Large Business and International Division SE:LB:SS:DPORL




                                                                                    Page 14
                      Assessment of the Internal Revenue Service’s
                   Interpretation of Section 1302 of the Recovery Act:
                       Qualifying Advanced Energy Project Credit



                                                                                  Appendix IV

           Internal Revenue Code Section 48C,
         Qualifying Advanced Energy Project Credit

(a) In general
For purposes of section 46, the qualifying advanced energy project credit for any taxable year is
an amount equal to 30 percent of the qualified investment for such taxable year with respect to
any qualifying advanced energy project of the taxpayer.
(b) Qualified investment
   (1) In general
   For purposes of subsection (a), the qualified investment for any taxable year is the basis of
   eligible property placed in service by the taxpayer during such taxable year which is part of a
   qualifying advanced energy project.
   (2) Certain qualified progress expenditures rules made applicable
   Rules similar to the rules of subsections (c)(4) and (d) of section 46 (as in effect on the day
   before the enactment of the Revenue Reconciliation Act of 1990) shall apply for purposes of
   this section.
   (3) Limitation
   The amount which is treated for all taxable years with respect to any qualifying advanced
   energy project shall not exceed the amount designated by the Secretary as eligible for the
   credit under this section.
(c) Definitions
   (1) Qualifying advanced energy project
       (A) In general
       The term “qualifying advanced energy project” means a project—
           (i) which re-equips, expands, or establishes a manufacturing facility for the
           production of—
                 (I) property designed to be used to produce energy from the sun, wind,
                 geothermal deposits (within the meaning of section 613(e)(2)), or other renewable
                 resources,

                                                                                           Page 15
                Assessment of the Internal Revenue Service’s
             Interpretation of Section 1302 of the Recovery Act:
                 Qualifying Advanced Energy Project Credit



          (II) fuel cells, microturbines, or an energy storage system for use with electric or
          hybrid-electric motor vehicles,
          (III) electric grids to support the transmission of intermittent sources of
          renewable energy, including storage of such energy,
          (IV) property designed to capture and sequester carbon dioxide emissions,
          (V) property designed to refine or blend renewable fuels or to produce energy
          conservation technologies (including energy-conserving lighting technologies and
          smart grid technologies),
          (VI) new qualified plug-in electric drive motor vehicles (as defined by section
          30D), qualified plug-in electric vehicles (as defined by section 30(d)), or
          components which are designed specifically for use with such vehicles, including
          electric motors, generators, and power control units, or
          (VII) other advanced energy property designed to reduce greenhouse gas
          emissions as may be determined by the Secretary, and
       (ii) any portion of the qualified investment of which is certified by the Secretary
       under subsection (d) as eligible for a credit under this section.
   (B) Exception
   Such term shall not include any portion of a project for the production of any property
   which is used in the refining or blending of any transportation fuel (other than renewable
   fuels).
(2) Eligible property
The term “eligible property” means any property—
   (A) which is necessary for the production of property described in paragraph (1)(A)(i),
   (B) which is—
       (i) tangible personal property, or
       (ii) other tangible property (not including a building or its structural components), but
       only if such property is used as an integral part of the qualified investment credit
       facility, and
   (C) with respect to which depreciation (or amortization in lieu of depreciation) is
   allowable.




                                                                                         Page 16
                    Assessment of the Internal Revenue Service’s
                 Interpretation of Section 1302 of the Recovery Act:
                     Qualifying Advanced Energy Project Credit



(d) Qualifying advanced energy project program
   (1) Establishment
      (A) In general
      Not later than 180 days after the date of enactment of this section, the Secretary, in
      consultation with the Secretary of Energy, shall establish a qualifying advanced energy
      project program to consider and award certifications for qualified investments eligible for
      credits under this section to qualifying advanced energy project sponsors.
      (B) Limitation
      The total amount of credits that may be allocated under the program shall not exceed
      $2,300,000,000.
   (2) Certification
      (A) Application period
      Each applicant for certification under this paragraph shall submit an application
      containing such information as the Secretary may require during the two-year period
      beginning on the date the Secretary establishes the program under paragraph (1).
      (B) Time to meet criteria for certification
      Each applicant for certification shall have one year from the date of acceptance by the
      Secretary of the application during which to provide to the Secretary evidence that the
      requirements of the certification have been met.
      (C) Period of issuance
      An applicant which receives a certification shall have three years from the date of
      issuance of the certification in order to place the project in service and if such project is
      not placed in service by that time period, then the certification shall no longer be valid.
   (3) Selection criteria
   In determining which qualifying advanced energy projects to certify under this section, the
   Secretary—
      (A) shall take into consideration only those projects where there is a reasonable
      expectation of commercial viability, and
      (B) shall take into consideration which projects—
          (i) will provide the greatest domestic job creation (both direct and indirect) during the
          credit period,


                                                                                             Page 17
                      Assessment of the Internal Revenue Service’s
                   Interpretation of Section 1302 of the Recovery Act:
                       Qualifying Advanced Energy Project Credit



            (ii) will provide the greatest net impact in avoiding or reducing air pollutants or
            anthropogenic emissions of greenhouse gases,
            (iii) have the greatest potential for technological innovation and commercial
            deployment,
            (iv) have the lowest levelized cost of generated or stored energy, or of measured
            reduction in energy consumption or greenhouse gas emission (based on costs of the
            full supply chain), and
            (v) have the shortest project time from certification to completion.
   (4) Review and redistribution
         (A) Review
         Not later than four years after the date of enactment of this section, the Secretary shall
         review the credits allocated under this section as of such date.
         (B) Redistribution
         The Secretary may reallocate credits awarded under this section if the Secretary
         determines that—
            (i) there is an insufficient quantity of qualifying applications for certification pending
            at the time of the review, or
            (ii) any certification made pursuant to paragraph (2) has been revoked pursuant to
            paragraph (2)(B) because the project subject to the certification has been delayed as a
            result of third-party opposition or litigation to the proposed project.
         (C) Reallocation
         If the Secretary determines that credits under this section are available for reallocation
         pursuant to the requirements set forth in paragraph (2), the Secretary is authorized to
         conduct an additional program for applications for certification.
   (5) Disclosure of allocations
   The Secretary shall, upon making a certification under this subsection, publicly disclose the
   identity of the applicant and the amount of the credit with respect to such applicant.
(e) Denial of double benefit
A credit shall not be allowed under this section for any qualified investment for which a credit is
allowed under section 48, 48A, or 48B.
Source
(Added Pub. L. 111–5, div. B, title I, § 1302(b), Feb. 17, 2009, 123 Stat. 345.)

                                                                                              Page 18
                     Assessment of the Internal Revenue Service’s
                  Interpretation of Section 1302 of the Recovery Act:
                      Qualifying Advanced Energy Project Credit



References in Text
Subsections (c)(4) and (d) of section 46 (as in effect on the day before the enactment of the
Revenue Reconciliation Act of 1990), referred to in subsec. (b)(2), means section 46(c)(4) and
(d) as in effect before enactment of Pub. L. 101–508, which amended section 46 generally.
The date of enactment of this section, referred to in subsec. (d)(1)(A), (4)(A), is the date of
enactment of Pub. L. 111–5, which was approved Feb. 17, 2009.
Effective Date
Section applicable to periods after Feb. 17, 2009, under rules similar to the rules of section 48(m)
of this title as in effect on the day before Nov. 5, 1990, see section 1302(d) of Pub. L. 111–5, set
out as an Effective Date of 2009 Amendment note under section 46 of this title.




                                                                                             Page 19
                    Assessment of the Internal Revenue Service’s
                 Interpretation of Section 1302 of the Recovery Act:
                     Qualifying Advanced Energy Project Credit



                                                                                       Appendix V

                     Application Requirements for the
                         Advanced Energy Credit

Manufacturers were required to submit three applications for each project for which they were
requesting the Advanced Energy Credit – Preliminary Application, Application for Department
of Energy Recommendation, and Application for § 48C Certification.
      The Preliminary Application provided the Department of Energy a preview of the types
       of projects that would be applying for the Credit. This allowed the Department to
       adequately plan for the technical expertise that would be needed to review the
       Applications for Department of Energy Recommendation once submitted.
      The Application for Department of Energy Recommendation served as a project’s official
       application for the Advanced Energy Credit.
      The Application for § 48C Certification provided detailed information about the entity
       requesting the Credit as well as contact information. The IRS used this information to
       verify that applications were being submitted by individuals within the requesting entity
       who had the authority to do so. Figure 1 provides the information manufacturers were
       required to submit with each application.
        Figure 1: Application Requirements for the Advanced Energy Credit

       Application                                       Requirements

 Preliminary             Manufacturers were to provide a brief description of the project, including:
 Application             •   A summary of the project.
                         •   The specified advanced energy property the re-equipped, expanded, or
                             new manufacturing facility will produce.
                         •   Current project status and progress to date.
                         •   Project schedule and milestones through the placed-in-service date.




                                                                                                Page 20
                       Assessment of the Internal Revenue Service’s
                    Interpretation of Section 1302 of the Recovery Act:
                        Qualifying Advanced Energy Project Credit



        Application                                              Requirements

    Application for          Manufacturers were to provide:
    Department of             A copy of the project’s Preliminary Application.
    Energy
    Recommendation            A description of the project including:
                                 o A description of the project, including incremental manufacturing
                                   capacity.
                                 o Location of the project.
                                 o The specified advanced energy property the re-equipped, expanded,
                                   or new manufacturing facility will produce.
                                 o The amount of tax credit requested and the estimated amount that will
                                   be treated as a qualified investment.
                                 o Current project status and schedule, with milestones, through the
                                   placed-in-service date.
                                 o Summary of the main parties to the project, including owners,
                                   investors, and technical partners.
                                 o Summary of the financial strength of owners, investors, and technical
                                   partners and the technical capabilities and experience of the technical
                                   partners providing key components to the project.
                                 o Overview of the intellectual property arrangements with respect to the
                                   property produced.
                                 o Confirmed or potential customers who will purchase, lease, or use the
                                   property produced.
                             •   The project’s business plan.
                             •   The project’s financial plan.
                             •   Information on job creation.
                             •   Total emissions reduced.
                             •   A discussion of greenhouse gas emissions and air pollutants generated,
                                 along the full supply chain, for the manufacture, installation, operation,
                                 and decommissioning of the specified advanced energy property to
                                 which the project will contribute.
                             •   A discussion of whether the project will produce a new or significantly
                                 improved technology.
                             •   Calculations of incremental cost improvements for the specified
                                 advanced energy property attributable to the facility.
                             •   A description of other technological improvements for the specified
                                 advanced energy property attributable to the facility.
                             •   A calculation of the Attributable Annual Manufacturing Capacity.1




1
 Attributable Annual Manufacturing Capacity measures the total impact over the lifetime of deployed property
which is attributable to one year of manufacturing.
                                                                                                        Page 21
                          Assessment of the Internal Revenue Service’s
                       Interpretation of Section 1302 of the Recovery Act:
                           Qualifying Advanced Energy Project Credit



          Application                                          Requirements

     Application for § 48       Manufacturers were to provide:
     Certification              •   The name, address, and Taxpayer Identification Number2 of the
                                    taxpayer. If the taxpayer is a member of an affiliated group filing
                                    consolidated returns, the taxpayer must also provide the name, address,
                                    and Taxpayer Identification Number of the common parent of the group.
                                •   The name, telephone number, e-mail address, and fax number of a
                                    contact person.
                                •   A properly executed power of attorney, preferably on Form 2848, Power
                                    of Attorney and Declaration of Representative, for the contact person.
                                •   One electronic version of the completed Application for Department of
                                    Energy Recommendation submitted with respect to the project.
    Source: IRS Notice 2009-72, Qualifying Advanced Energy Project Credit, issued September 14, 2009.3




2
  A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the Taxpayer Identification Number is an Employer Identification Number, a Social Security Number, or an
Individual Taxpayer Identification Number.
3
  IRS Notice 2009-72, 2009-37 Internal Revenue Bulletin 325.
                                                                                                          Page 22
                          Assessment of the Internal Revenue Service’s
                       Interpretation of Section 1302 of the Recovery Act:
                           Qualifying Advanced Energy Project Credit



                                                                                               Appendix VI

               Department of Energy Technology Groups

The Department of Energy grouped the 594 applications it received for the Advanced Energy
Credit into 19 technology groups. Department of Energy technical experts reviewed the
applications within each technology group and computed a technical expert score for each
project. A project’s score was based on the eligibility and evaluation criteria contained in
Appendix B of IRS Notice 2007-92, Qualifying Advanced Energy Project Credit.1

              Batteries                                               Solar, Components and Materials
              Biomass                                                 Solar, Crystalline Silicon
              Building Efficiency                                     Solar, Concentrating Solar Power
              Carbon Capture and Storage                              Solar, Hot Water
              Fuel Cell                                               Solar, Photo Voltaic
              Geothermal                                              Vehicles
              Hydro                                                   Wind, Blades
              Industrial                                              Wind, Towers
              Nuclear                                                 Wind, Turbines
              Smart Grid


                                                            




1
    I.R.S. Notice 2009-72, 2009-37 Internal Revenue Bulletin 325.
                                                                                                      Page 23
